                                                  Page 1

TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION

                     J.··i{~::ijfjllP···,·
                                            ~".            ~"".

                                   l~ .                     :f~\
                                  ;£4
                                  '0
                                                                  ~).
                                                                  ~.
                                  \-
                                  ..." ..                     ~.
                                                                  !'Ill
                                   \c:>                      r§/
                                    \~                    .~)~/
                                            ···?t1{.!'.:Q~1~·/·


             Individual Retirement Account Contributions
                 and Distributions Are Not Adequately
                 Monitored to Ensure Tax Compliance




                                      March 28, 2008

                          Reference Number: 2008-40-087




 Phone Number
 Email Address
                               -

                  I 202-622-6500
                  I inquirles@tigta.treas.gov
 Web Site        I http://www.tigta.gov
                                                         Page 2




                                                 DEPARTMENT OF THE TREASURY

                                                       WASHINGTON, D.C. 20220





11lEASURY INSPECTOR GENERAL
   FOR TAX ADMINISTRATION




                                                 March 28, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                               -yt)   ~~          'R. ~~
 FROM:	                       Michael R. Phillips

                              Deputy Inspector General for Audit


 SUBJECT:	                    Final Audit Report - Individual Retirement Account Contributions and
                              Distributions Are Not Adequately Monitored to Ensure Tax
                              Compliance (Audit #2007400 10)

 This report presents the results of our review to determine whether the Wage and Investment
 Division is adequately planning for and addressing tax issues related to Individual Retirement
 Accounts (IRA).· This review is part of the Treasury Inspector General for Tax Administration's
 Fiscal Year 2007 Annual Audit Plan coverage under the major management challenge of
 Complexity of the Tax Law.

 Impact on the Taxpayer
As the number of taxpayers reaching retirement age increases, their incomes will be transitioning
from wages to investment and retirement benefits. IRAs are a key, tax-preferred way for
individuals to save for retirement and are increasingly important as a way for individuals to roll
over savings from pension plans. In 2005, estimated Roth IRA assets totaled $147 billion, and
traditional IRA assets totaled $3.26 trillion. We found that taxpayers are sometimes contributing
more than is allowed into tax-deferred or tax-free accounts and they are not taking taxable
distributions when required, which could result in lost tax revenues. In addition, taxpayers could
be treated inequitably due to the lack of monitoring ofIRAs.




 I The term IRA is also known as Individual Retirement Arrangement and includes individual retirement annuities. It
 is popularly known as IRAs.


                                        -
                                                     Page 3




                  Individual Retirement Account Contributions and Distributions

                    Are Not Adequately Monitored to Ensure Tax Compliance




Synopsis

The Internal Revenue Service (IRS) needs to strengthen its procedures and controls for ensuring
that taxpayers and IRA custodians comply with IRA rules. Failure to ensure correct reporting by
IRA custodians could hinder the IRS' ability to identify excess contributions. Moreover, lack of
adequate monitoring and enforcement could result in lost tax revenues when taxpayers make
excess contributions or fail to pay excise taxes on required minimum distributions that are not
taken.
There are two main types ofIRAs, a traditional IRA and a Roth IRA. Both types allow
taxpayers to contribute up to $4,000 per year ($4,500 if age 50 or older),' and provide tax
deferral of contributions or earnings. Traditional lRAs, within certain income limits and other
eligibility factors,' allow taxpayers to deduct the amount oftheir IRA contributions from their
taxable income, thus adding to their tax deferral benefits. However, taxpayers must begin to
withdraw funds from their traditional lRAs when they reach 70Yz, and the funds received are
generally taxed as regular income.
Roth lRAs do not provide for a tax deduction for contributions, but the entire amount of the
account is tax free when withdrawn. In addition, there is no age limit as to when withdrawals
must take place, so taxpayers can accumulate investment earnings tax free for as long as they
choose.
\Ve analyzed more than 13.7 million IRA Contribution Information (Form 5498) showing IRA
contributions in Tax Year (TY) 2005 and identified 51,109 taxpayers who had made IRA
contributions in excess ofthe maximum allowable IRA contribution limit. Contributions that are
in excess of the limits and not properly withdrawn are subject to a 6 percent excise tax. The
51,109 taxpayers we identified made excess contributions of more than $110 million and did not
report excise taxes on these excess contributions. The loss to the IRS on unpaid excise taxes was
more than $6.6 million in TY 2005. If taxpayers continue to make excess contributions at the
same rate we identified, we estimate the amount of excise tax that would not be collected over
5 years would be approximately $33 million.
In addition, because the earnings on the excess contributions are not taxed, the potential loss of
taxes paid on interest income could be significant. If these taxpayers continued to make excess
contributions to their IRAs, the compounded interest earned over 5 years could total
approximately $127 million, and the potential revenue loss from unreported interest income
could be more than $19 million.


2 These were the contribution limits in effect for Tax Year 2005, which is the period we evaluated. The contribution

limit for taxpayers 50 and over was raised to $5,000 for Tax Year 2006.

; Eligibility takes into account whether the taxpayer has taxable compensation, age at the end of the year, and the





                                            -
income limits and filing status if the taxpayer or spouse had an employer-sponsored retirement account.


                                                                                                                   2
                                            Page 4



                                    -
               Individual Retirement Account Contributions and Distributions

                 Are Not Adequately Monitored to Ensure Tax Compliance




We also found that the IRS does not ensure that taxpayers are complying with the required
minimum distributions rules for IRAs. \Ve matched a file of taxpayers required to take minimum
distributions in TY 2005 against a me ofTY 2005 distributions and identified 471,383 taxpayers
who did not report any distributions. \Ve reviewed a judgmental sample of 30 taxpayer accounts
and determined that 5 (17 percent) did not take any or all oftheir required minimum
distributions. The required distributions not taken by the 5 taxpayers totaled $188,852. The
50 percent excise tax that was not reported on this income totaled $94,426. Our limited sample
was not intended to provide an overall estimate of revenue loss. However, for perspective, if
there are a similar proportion of taxpayers who did not take all oftheir TY 2005 required
distributions, the potential revenue loss from unreported excise taxes could total as much as
$1.5 billion for 1 year.
Finally, financial custodians of IRA accounts are making a significant number of errors when
preparing and submitting Forms 5498. When analyzing the Forms 5498 for excess contributions,
we initially identified more than 107,000 taxpayers who appeared to have made excess
contributions. However, as we analyzed a sample of the Forms 5498, we found that more than
52 percent of the Forms 5498 contained obvious errors. We could not determine the cause ofthe
errors without auditing the custodians' records. However, based on the amounts reported as
contributions, it appears that in many instances custodians may have mistakenly included in the
"contribution" box the total fair market value of the IRA or the amount rolled over from one IRA .
to another. We also found multiple Forms 5498 submitted for the same taxpayer that contributed
to the appearance of excess contributions.

Recommendations

We recommended that the Commissioner, Wage and Investment Division:
   •	 Coordinate with the IRS Office ofResearch, Analysis, and Statistics to conduct analyses
      for identifying and resolving erroneous Forms 5498. Possible corrective actions could
      include notifying custodians of errors and requesting corrected forms, establishing
      validity checks to reject Forms 5498 that are submitted with more than the maximum
      allowable contribution for that tax year, and assessing appropriate penalties against
      custodians who repeatedly submit erroneous Forms 5498.
   •	 Develop and implement strategies to bring noncompliant taxpayers back into compliance.
      These strategies could include referring taxpayers identified with large excessive
      contributions to the IRS Criminal Investigation Division for further review, and revising
      the Automated Underreporter Program to include IRA contributions so excess
      contributions could be identified and applicable excise taxes assessed. If the Automated
      Underreporter Program cannot be modified, create a special program for sending "soft"



                                                                                                3
                                              Page 5




                                      -
               Individual Retirement Account Contributions and Distributions

                 Are Not Adequately Monitored to Ensure Tax Compliance




       notices to taxpayers appearing to have made excess contributions to their IRAs and
       explaining the need. to withdraw the excess contributions or pay the required excise taxes.
   •	 Utilize information from the Forms 5498 to identify taxpayers who are subject to
      required minimum distributions and compare this information to subsequent tax returns
      to determine whether distributions were reported.
   •	 Require IRA custodians to compute and provide to the IRS the estimated required
      minimum distributions so this information could be used as part ofthe Automated
      Underreporter Program.

Response

The IRS agreed with all four of our recommendations. Specifically, the IRS plans to gather data
through its National Research Program study ofTY 2007 individual returns. The study will
address issues for all four recommendations, including the following items:
    •	 Focus on noncompliance with traditional and Roth IRA contributions rules and identify
       potential penalty amounts for key IRA rules, as well as for taxpayers over age 70~2 who
       do not take required minimum distributions for traditional IRAs.
   •	 Analyze Forms 5498 (including Box 11 data) in an effort to identify erroneous filings and
      develop outreach opportunities designed to improve taxpayer reporting accuracy.
   •	 Determine the volume of excess contributions and identify trends related to noncompliant
      Roth IRA contributions (and will be expanded to include traditional IRA contributions
      information).
Once the research data becomes available~l~rWJj~~I;I:;i!I;I;;hheIRS will determine the best approach
for improving taxpayer reporting behavior, identify cost-effective methods to address taxpayer
accounts that are not compliant with Roth IRA contribution rules (such as soft notices), and
determine what actions, if any, to take related to Box 11 Form 5498 data.
IRS management did not agree with the projected outcomes associated with the recommendation
to develop and implement strategies to bring noncompliant taxpayers back into compliance
because management does not believe the outcome measures will be realized if the IRS chooses
to take a different route based on the results of its study. Management's complete response to
the draft report is included as Appendix VII.

Office of Audit Comment

We are pleased that the IRS is in full-agreement with our recommendations and plans to
incorporate its corrective action in unison with its planned action resulting from the recent report

                                                                                                       4
                                                   Page 6




                                          -
                 Individual Retirement Account Contributions and Distributions
                   Are Not Adequately Monitored to Ensure Tax Compliance



issued by the Government Accountability Office." However, we are concerned with the IRS'
stated disagreement with the proposed outcome measures reflected in our report. These
measures were projected over a 5-year period to show the significance ofthe potential revenue
loss that may occur beyond the actual loss determined from a 100 percent computer analysis of
51,109 taxpayers in TY 2005. Our review ofthe TY 2005 data clearly indicates a combined
revenue loss 01'$13.3 million and represents the base year figure used to project the combined
5-year outcome measurements of $52 million.




                      we advised them that the detailed data used to compile the 100 percent
computer analysis could be made available to the IRS to enable it to analyze the 51,109 taxpayer
accounts identified in TY 2005 and determine the level of subsequent year noncompliance by
these taxpayers. This could be used to compliment the IRS' planned compliance study.
The Treasury Inspector General for Tax Administration has designated this audit report as
Sensitive But Unclassified pursuant to Chapter III, Section 23 ofthe Treasury Security Manual
(TD P 71- I5) entitled, "Sensitive But Unclassified Information." Because this document has
been designated Sensitive But Unclassified, it may be made available only to those officials who
have a need to know the information contained within this report in the performance oftheir
official duties. This report must be safeguarded and protected from unauthorized disclosure;
therefore, all requests for disclosure ofthis report must be referred to the Disclosure Branch
within the Treasury Inspector General for Tax Administration Office of Chief Counsel.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




4Individual Retirement Accounts: IRS Enforces Some but Not All Key Rules, and Opportunities Exist to Strengthen
Taxpayer Compliance (GAO-07-1059SU, dated September 2007).




                                                                                                              5
                                          Page 7




                                  -
             Individual Retirement Account Contributions and Distributions
               Are Not Adequately Monitored to Ensure Tax Compliance




                                 Table of Contents


Background                                                                 Page


Results of Review                                                          Page 5
     Some Financial Custodians Are Making Errors When
     Reporting IRA Contributions                                           Page 5
             Recommendation 1:                                 Page 6
     Some Taxpayers Made Contributions in Excess ofthe Maximum
     Allowable Limits                                                      Page 7
             Recommendation 2:                                 Page 10
     Taxpayers Are Not Taking Required Minimum Distributions               Page 11
             Recommendation 3:                                 Page 12
             Recommendation 4:                                 Page 13


Appendices
     Appendix I - Detailed Objective, Scope, and Methodology               Page 14
     Appendix II - Major Contributors to This Report                       Page 16
     Appendix III - Report Distribution List                               Page 17
     Appendix IV - Outcome Measures                                        Page 18
     Appendix V - IRA Contribution Information (Form 5498)                 Page 20
     Appendix VI - Distributions From Pensions, Annuities, Retirement or
     Profit-Sharing Plans, IRAs, Insurance Contracts, etc. (Form 1099-R)   Page 21
     Appendix VII - Management's Response to the Draft Report              Page 23
                               Page 8




                       -
      Individual Retirement Account Contributions and Distributions
        Are Not Adequately Monitored to Ensure Tax Compliance




                      Abbreviations

AUR             Automated Underreporter

IRA             Individual Retirement Account (also known as Individual
                Retirement Arrangement)
IRS             Internal Revenue Service

TY              Tax Year




                        -

                                                      Page 9




                  Individual Retirement Account Contributions and Distributions

                    Are Not Adequately Monitored to Ensure Tax Compliance





                                             Background

The United States population reached 300 million in October 2006, and by 2030 the population
is projected to exceed 363 million. The percentage of the population over age 65 is increasing,
and projections indicate this trend will continue. In 2005, there were about 36.8 million people
aged 65 and older (12 percent ofthe total population), and the number of people aged 85 and
older reached approximately 5.1 million. By 2030, the number of people aged 65 and over is
expected to double to about 20 percent of the population, or more than 71 million people. The
number of people aged 85 and older will be the fastest growing segment ofthe United States
population.' This trend is the result of the aging ofthe baby boomers born between 1946 and
1964.
More of these taxpayers over age 65 will be transitioning from wages to pension benefits. In
addition to relying on Social Security and savings to prepare for retirement, a variety of
tax-advantaged investments can be used that are specifically earmarked for retirement savings.
These include Individual Retirement Accounts (IRAs),2
employer-sponsored defined contribution and defined
benefit pension plans, and annuities.                          Retirement assets reached a
                                                                           record high of $14.5 trilHon
Retirement assets reached a record high of $14.5 trillion                    in 2005 and more than
in 2005, an increase of 7 percent over 2004. These                         25 percent of these assets
savings vehicles are integral to overall retirement                               were in IRAs.
planning and preparedness and account for more than
one-third of all household financial assets. More than
25 percent of all retirement assets were in IRAs.
IRAs are a key tax-preferred way for individuals to save for retirement and are increasingly
important as a way for individuals to roll over savings from pension plans. The funds put into an
IRA are tax-deferred, so the account can grow faster than a typical investment account. To
illustrate, if a person were to contribute $4,000 a year to an IRA with an 8 percent rate of return
for 30 years, the IRA would be worth $449,133 at the end ofyear 30. Ifthe same funds were
invested in a non tax-deferred account, assuming a 31 percent tax rate, it would be worth
$286,752 instead of$449,133. That is 36 percent less, a difference of$162,381 (as shown in
Figure 1).



1 U.S. Census Bureau, Population Division, Population Projections Branch from The Wage and Investment Strategy
and Program Plan FY 2007- FY 2008.
2 The term IRA is also knOV\'11 as Individual Retirement Arrangement and includes individual retirement annuities. It
is popularly known as !RAs.
                                                                                                             Page
                                                      Page 10




                                             -
                  Individual Retirement Account Contributions and Distributions

                    Are Not Adequately Monitored to Ensure Tax Compliance




                Figure 1: Effects of Tax Deferred Growth on an Investment


                               Taxed        VS.   Non-Taxed Investments
                                        -       Taxed -Non-Taxed


                         $ 5 00, 000   ...--------------------------.----.­
                         $400,000
                         $300, 000 ,---.-.----------­

                         $200,000
                         $100,000      $19,466
                                 $0     $16,333
                                            ~            10              20       30

                                                         Year


                     Source: Excerpt/rom Equity Trust Company web site.

There are two main types ofIRAs, a traditionallRA and a Roth IRA. Both types allow
taxpayers to contribute up to $4,000 per year ($4,500 if age 50 or older) and provide
tax-preferred ways of saving for retirement. However, there are some important differences
between the types ofIRAs. 3
The traditional IRA, within certain income limits and other eligibility factors,' allows taxpayers
to deduct the amount of their IRA contributions from their taxable income, thus adding to their
tax deferral benefits. However, taxpayers must begin to withdraw funds from their traditional
IRAs when they reach 70~2, and the funds received are generally taxed as regular income. Also,
once taxpayers reach 70~2, they can no longer contribute to their traditional IRA.
Roth IRAs, also subject to certain income limits, do not provide for a tax deduction for
contributions, but the entire amount ofthe account is tax free when withdrawn. In addition, there
is no age limit as to when withdrawals must take place, so taxpayers can accumulate investment
earnings tax free for as long as they cho,ose.




3 These were the contribution limits in effect for Tax Year 2005, which is the period we evaluated, The contribution
limit for taxpayers 50 and over was raised to $5,000 for Tax Year 2006.
4 Eligibility takes into account whether the taxp ayer has taxable compensation, age at the end of the year, and the




                                                -
income limits and filing status if the taxpayer or spouse had an employer-sponsored retirement account.
                                                                                                            Page 2
                                                    Page 11




                                           -
                  Individual Retirement Account Contributions and Distributions
                    Are Not Adequately Monitored to Ensure Tax Compliance



While these IRA pro visions provide meaningful benefits to taxpayers, these same provisions can
pose a significant risk for tax revenue loss to the Federal Government if the information provided
by IRA account custodians is not effectively used to prevent potential taxpayer abuse and/or
fraud.
For example, if a 50-year-old taxpayer fully fimded one Roth IRA and then improperly
established a second Roth IRA with a financial custodian different from the custodian of his or
her one allowable account, the potential amount ofunreported. interest earned and tax-free
flow-through to beneficiaries could be substantial over 30 years due to the annual compounding
of interest earned, as shown in Figure 2.
            Figure 2: Potentia/Impact to Interna/ Revenue                    servtce Revenues




           Principal plus Interest          $62,174        $184,480       $425,074

           (less) Total Contributions       -$45,000       -$90,000       -$135,000

           Total Unreported Interest        $17,174         $94,480       $290,074

         Source: Treasury Inspector Generalfor Tax AdministrationAnalysis Using a Future

         Value ofan Ammity Calculator.


Additionally, if a taxpayer had sufficient funds to establish more than one unallowable Roth IRA

account at various financial institutions, the risk of significant unreported income could be

substantially more than the amounts shown in Figure 2. To protect against this risk, IRA

custodians are required to report IRA contributions to the Internal Revenue Service (IRS) on IRA

Contribution Information (Form 5498) and provide copies to the IRA owners (taxpayers). A

separate Form 5498 should be filed for each IRA account. An example of Form 5498 is shown

in Appendix V.

Custodians are required to report distributions from IRA accounts on Distributions From

Pensions, Annuities, Retirement or Profit-Sharing Plans, IRAs, Insurance Contracts, etc.

(Form I099-R). Custodians must also provide the appropriate distribution codes. For example,

code 7 for normal distribution, code 4 for death, etc. An example of Form I099-R is shown in

Appendix VI.

Custodians submit Forms 5498 and I 099-R to the IRS' Information Returns Branch. 5 This

branch collects and processes the information returns so they can be used by other IRS functions





                                             -
5A   branch in the IRS Modernization and Information Technology Services function.
                                                                                                Page 3
                                                    Page 12




                                           -
                  Individual Retirement Account Contributions and Distributions
                     Are Not Adequately Monitored to Ensure Tax Compliance



or programs. Once the information returns are processed, they are posted to the IRS Information
Returns Master File. 6 Data on this system may not be available for months, because some
information returns are not due until the middle of the following year. For example, Tax Year
(TY) 2005 Forms 5498 were not due until May 31,2006.
The Automated Underreporter (AUR) program is one IRS program that uses the information
return data. The AUR is an automated system that helps the IRS identify under-reported and/or
                                                                         inc




This review was performed at the IRS Campus' in Austin, Texas. It included a review of
TYs 2004 and 2005 Forms 5498 and Forms 1099-R filed nationwide by custodians and stored on
the Information Returns Master File, a review of TY 2005 individual income tax returns stored
on the Individual Master File," and discussions with personnel from the Submission Processing
and Automated Underreporter offices in the Wage and Investment Division and with personnel
from the Office of Modernization and Information Technology Services. The review was
performed during the period November 2006 through December 2007. \Ve conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix 1. Major contributors to the report are listed in
Appendix II.




6 The Information Returns Master File contains tax information reported from third parties for the current and

prior 5 tax years.

7 Form 1040 series: U.S. Individual Income Tax Return (F01ID 1040); U.S. Individual Income Tax Return (Form

1040A); Income Tax Return for Single and Joint Filers With No Dependents (Form 1040EZ).

S The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct

errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.





                                            -
9 The IRS database that maintains transactions or records of individual tax accounts.

                                                                                                          Page 4
                                                    Page 13




                                           -
                  Individual Retirement Account Contributions and Distributions
                    Are Not Adequately Monitored to Ensure Tax Compliance




                                       Results of Review

IRS processing procedures for IRAs do not ensure that taxpayers and custodians are complying
with the IRA rules. The IRS' procedures are not adequate for it to identify taxpayers who make
IRA contributions in excess ofwhat the law allows or taxpayers who are not taking their required
minimum distributions. In addition, IRS processes do not identify custodians who incorrectly
report IRA transactions.

Some Financial Custodians Are Making Errors When Reponing IRA
Contributions
Financial custodians of IRA accounts annually report the amount of contributions to the IRS on
Forms 5498. \Ve performed computer analyses on more than 13.7 million Forms 5498 showing
IRA contributions in TY 2005 and identified 107,129 taxpayer" accounts that appeared to have
exceeded the $4,500 maximum allowable IRA contribution limit for TY 2005 and did not report
excise taxes on these excess contributions." We analyzed these forms and identified obvious
errors totaling nearly $1.3 billion that were reported to the IRS from various financial custodians.
Some examples of these custodial errors included:
•	 A total of $440.1 million of traditional IRA contributions attributable to 489 Forms 5498
   (an average contribution of$900,000).


                                                                                   More than 52 percent of the
                                                                                     taxpayer accounts that
We could not determine the cause of these errors without                             appeared to exceed the
auditing the custodians' records. However, based on the amounts                      contribution limits were
reported as contributions, it could be that custodians mistakenly                  caused by custodial errors.
included in the "contribution" box the total fair market value of
the IRA or the amount rolled into the IRA from other IRAs or
pensions. The errors could also have been caused by misplaced decimal points or other
typographical errors. \Ve found that 100 financial custodians accounted for about 77 percent
($996 million of the $1.3 billion) of the total inaccuracies.


10 We originally identified 114,107 taxpayer accounts that appeared to have exceeded the $4,500 maximum
allowable limit. However, 6,978 of these taxpayer accounts had multiple Forms 5498, and we could not determine
if they were custodial errors. These accounts were eliminated from our total taxpayer accounts reported of 107,129.
11 To avoid erroneously identifying taxpayers 50 years and older as having exceeded their IRA contribution limit,
we used the maximum allowable amount of $4,500 for Tr" 2005.
                                                                                                            Page 5
                                                     Page 14




                                             -
                    Individual Retirement Account Contributions and Distributions·
                      Are Not Adequately Monitored to Ensure Tax Compliance



Multiple Forms 5498 12 also contributed to the errors identified on Forms 5498. IRS personnel
explained that when more than two Forms 5498 are submitted to the IRS, the Information
Reporting Program Data Assimilation Unit" does not attempt to determine which is the accurate
document (the last return submission should reflect the taxpayer's last action). The file date on
the Information Return Master File is the date the information return was entered and not the
date the custodian filed the information return or the date it was received by the IRS.
When multiple Forms 5498 are submitted for the same taxpayer and same IRA account, it cannot
always be determined which Form 5498 was submitted last. Generally, when there are multiple
amendments or corrected documents, the Information Reporting Program Data Assimilation Unit
uses the original document in the matching process. The additional documents are appended to
the file in the Information Returns Master File which allows tax examiners to review all ofthe
related taxpayer documents.

To effectively determine whether taxpayers are making excess contributions to their traditional
and Roth IRA accounts, the IRS first would need to implement procedures to identify and ensure
that Forms 5498 containing obvious errors from financial custodians are corrected and to
develop methods to ensure the accuracy and validity of any multiple Forms 5498 that might also
be submitted by the custodians. Failure to ensure correct reporting by IRA custodians could
hinder the IRS' ability to identify excess contributions.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should have the
Wage and Investment Research and Analysis office analyze Forms 5498 to identify the causes of
the errors and possible corrective actions. The possible corrective actions could include:
•	 Notifying the custodians of errors identified and requesting corrected Forms 5498.
•	 Establishing validity checks to reject, or redirect for further analysis, Forms 5498 that are
   submitted with more than the maximum allowable contribution for that tax year.
•	 Assessing appropriate penalties against custodians who repeatedly submit erroneous
   Forms 5498.
           Management's Response: The IRS agreed with this recommendation and has
           already begun corrective action. Specifically, the IRS plans to gather data through its
           National Research Program study of IT 2007 individual returns. This data will focus on
           noncompliance with traditional and Roth IRA contributions rules and identify potential


12 The   term multiple includes original, corrected original, and amended Forms 5498.
13 A




                                               -
       unit within the IRS Modernization and Information Technology Services function.
                                                                                             Page 6
                                                    Page 15




                   Individual Retirement Account Contributions and Distributions

                     Are Not Adequately Monitored to Ensure Tax Compliance




         penalty amounts for key IRA rules, as well as for taxpayers over age 70Y2 who do not
         take required minimum distributions for traditional TRAs. The IRS will also analyze
         Forms 5498 in an effort to identify erroneous filings and develop outreach opportunities
         designed to im rove taxpayer reporting accuracy: Once the research data becomes
         available             the IRS will determine the best approach for improving taxpayer
         reporting behavior.

Some Taxpayers Made Contributions in Excess of the Maximum
Allowable Limits
For TY 2005, IRA contribution limits were generally the smaller of $4,000 ($4,500 if age 50 or
older by the end of2005) or taxable compensation. Taxpayers could contribute to both
traditional and Roth IRAs for the same year; however, the total contributions could not exceed
the allowable limit. For example, a taxpayer 50 or over could contribute $3,000 to a Roth IRA
and $1,500 to a traditional IRA or any other combination provided that the total contribution did
not exceed $4,500. Contributions that are in excess ofthe limits and not properly withdrawn are
subject to a 6 percent excise tax.
After eliminating the Forms 5498 that appeared to be in error, we performed an analysis ofthe
remaining 51,109 taxpayer accounts with likely excess contributions." Some examples ofthese
excess contributions include:




Ofthe 51,109 taxpayer accounts remaining, we were able to identify $110.1 million in excess
contributions" above the allowable $4,500 limit for each of these taxpayers. The $110.1 million
amount equates to an IRS revenue loss ofmore than $6.6 million in unreported excise taxes.
Figure 3 illustrates this loss of revenue and estimates the amount of excise taxes that would not


14We also eliminated 6,644 taxpayer accounts where it appeared that no excess contributions were made.
15 Contributionsgreater than the $4,.500 maximum allowable contribution limit for IT 200.5 are defined as "excess"
IRA contributions.
                                                                                                           Page 7
                                                    Page 16




                                            -
                  Individual Retirement Account Contributions and Distributions
                    Are Not Adequately Monitored to Ensure Tax Compliance



be collected over 5 years would be approximately $33 million. This estimate is based on the
probability that these taxpayers will continue to make the same excess contributions over the
next 5 years.
           Figure 3: Potential Revenue Loss From Unreported Excise Taxes




                     Potential Unreported Excise
                                                                              $33,042,860
                     Taxes Over 5 Years
                  Source: Treasury Inspector Generalfor Tat AdministrationAnalysis ofTY 2005 Forms 5498.
Taxpayers who exceed the contribution limits have an unfair advantage over compliant taxpayers
in that they can earn tax-free interest on excess contributions to Roth IRA accounts. Traditional
IRAs are subject to the required minimum distribution rules so that excess contributions, and
earnings thereon, would eventually have to be distributed and included in taxable income.
However, Roth IRAs are not subject to the required minimum distribution rules. 16 Excess Roth
contributions, and the earnings thereon, could continue to grow tax free.



                                                             In addition to the $6.6 million loss in
excise taxes for TY 2005, Figure 4 shows the potential future compound interest effect from the
$110.1 million as it relates to revenue loss from unreported interest over the next 30 years using
a 7 percent interest rate and 15 percent tax rate. A single occurrence in TY 2005 would equate to
a cumulative $109.2 million revenue loss. However, assuming a repetitive occurrence each year
with an equal or larger amount of excess contributions could raise the potential loss to more than
$1.1 billion in 30 years due to the compounding interest factor.



16 There are some exceptions. For example, the required minimum distribution rules that apply to traditional IRAs




                                             -
apply to beneficiaries of Roth IRAs.
                                                                                                           Page 8
                                                   Page 17




                                          -
                  Individual Retirement Account Contributions and Distributions
                     Are Not Adequately Monitored to Ensure Tax Compliance



                 Figure 4: Potential Revenue Loss From Unreported Interest




  Unreported Interest if
  Compounded Only on the
  Excess Contributions of                $44,338,204             $106,524,829              $728,292,767
  $110.1 Million From
  TY 2005
  Revenue Loss @ 15%
                                         $6,650,731               $15,978,724              $109,243,915
  Effective Tax Rate


  Unreported Interest if
  Compounded on Excess
  Contributions Repeatedly              $127,026,756             $526,879,372             $7,828,188,969
  Made in Each Tax Year
  From 2005 to 2034
  Revenue Loss @ 15%
                                         $19,054,013              $79,031,906             $1,174,228,345
  Effective Tax Rate
Source: Treasury Inspector General for Tax Administration Analysis Using Future Value ofAnnuities Formulas.

The Government Accountability Oft1ce recently reviewed this area" and cited a high degree of

noncompliance with Roth IRA contribution rules. It reported that the enforcement gap for Roth

IRA contributions rules results in penalty dollars forgone in the near term and exposes the

Federal Government to potentially sizeable permanent future losses, because earnings on Roth

IRA contributions are generally tax-free.

In 2005, Roth IRA assets totaled an estimated $147 billion. Because ofthe ramifications of
abuse in this area and the importance of ensuring that the tax law is applied fairly, the IRS should
ensure that taxpayers comply with the tax rules for IRA contributions. Lack of proper oversight
and administration ofthese rules could result in potential abuses and risk of revenue loss in the
billions of dollars in future years.




            Retirement Accounts: IRS Enforces Some but Not All Key Rules, and Opportunities Exist to Strengthen
 17 Individual




                                            -
 Taxpayer Compliance (GAO-07-1059SU, dated September 2007).
                                                                                                       Page 9
                                             Page 18




                                     -
                Individual Retirement Account Contributions and Distributions
                  Are Not Adequately Monitored to Ensure Tax Compliance



Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should develop and
implement strategies to bring noncompliant taxpayers back into compliance. These strategies
could include:
•    Revising the                                               that excess contributions made
     by taxnaversf                                           percent excise tax on the total
     amount of excess contributions could be assessed.
•	                                              create special extracts ofForm 5498 data from the
     Information Returns Master File and send notices to taxpayers who appear to have made
     excess contributions to their IRAs, explaining that the taxpayers need to withdraw any excess
     contributions or pay the required excise taxes.

•
        Management's Response: The IRS agreed with this recommendation and has
        already begun corrective action. Specifically, the IRS plans to conduct a study to
        determine the volume of excess contributions and identify trends related to noncompliant
        Roth IRA contributions. The IRS will expand the analysis to include traditional IRA
        contributions information. Once the study is completed and excess contribution amounts
        are stratified, the IRS will identify cost-effective methods to address taxpayer accounts
        that are not compliant with Roth IRA contribution rules. One possible outcome may be a
        soft notice initiative, where every taxpayer meeting certain criteria is sent a notice.
        IRS management did not agree with the projected outcomes associated with the
        recommendation to develop and implement strategies to bring non-compliant taxpayers
        back into compliance, because management does not believe that the outcome measures
        will be realized if the IRS chooses to take a different route based on the results of its
        study.
        Office of Audit Comment: \Ve are concerned with the IRS' stated disagreement with
        the proposed outcome measures associated with this recommendation. These measures
        were projected over a 5-year period to show the significance of the potential revenue loss
        that might occur beyond the actual loss determined from a 100 percent computer analysis
        of51,109 taxpayers in TY2005. Our review ofthe TY 2005 data clearly indicates a
        combined revenue loss of $13.3 million and represents the base year figure used to
        project the combined 5-year outcome measurements of$52 million.




                                       -                                                   Page 10
                                                     Page 19




                  Individual Retirement Account Contributions and Distributions

                    Are Not Adequately Monitored to Ensure Tax Compliance





                                         we advised them t at t e eta! e ata use to comp e
        the 100 percent computer analysis could be made available to the IRS to enable it to
        analyze the 51,109 taxpayer accounts identified in TY 2005 and determine the level of
        subsequent year noncompliance by these taxpayers. This could be used to compliment
        the IRS' planned compliance study.

Taxpayers Are Not Taking Requirea Minimum Distributions
We performed computer analyses on 7.2 million TY 2004 Forms 5498 oftaxpayers who were
required to take minimum distributions in TY 2005 and identified 471,383 taxpayers (more than
6 percent) who did not report any distributions. We reviewed a judgmental sample of
30 taxpayer accounts and determined that 5 taxpayers (17 percent) did not take any or all of their
TY 2005 required minimum distributions. \Ve determined that $188,852 (72 percent) of
$261,447 total estimated required minimum distributions for the 5 taxpayers were not taken. The
50 percent excise tax that was not reported on this income totaled $94,426. Our limited sample
was not intended to provide an overall estimate of revenue loss. However, for perspective, if
there are a similar proportion oftaxpayers who did not take all of their TY 2005 required
distributions, the potential revenue loss from unreported excise taxes could total as much as
$1. 5 billion for 1 year. 18

We could not determine for 4 deceased taxpayers (13 percent) whether the beneficiaries took the
required minimum distribution. The IRS does not have access to beneficiary information and
cannot verify that required minimum distributions of deceased taxpayers are taken by the
beneficiaries. 19
\Ve also found obvious errors with custodians' reporting of the required minimum distributions.
Some examples include:
    •	 Four taxpayers had erroneous Forms 5498 that were issued by fue same custodian. \Ve
       determined that the four taxpayers were not subject to required minimum distributions
       for TY 2005.
    •	 Five taxpayers took their 2005 required minimum distributions. However, the custodians
       neglected to check the "IRNSEP/SIlI/IPLE" box on Form 1099-R.


18 We calculated this excise tax by averaging the $188,852 estimated required distributions that were not taken by

the 5 taxpayers identified in our sample ($37,770) and multiplied it by 17 percent of the 471,383 taxpayers (80,135),

which equaled $3,026,698,950 in minimum required distributions that . .vere not taken. The 50 percent excise tax

that would be due on this income totals $1.513.3 49.475.

19 No reporting of required minimum distributi~ns ~'ith respect to beneficiaries is required at this time.


                                                                                                            Page 11
                                                Page 20




                                        -
                Individual Retirement Account Contributions and Distributions
                   Are Not Adequately Monitored to Ensure Tax Compliance



When a taxpayer reaches age 70~2, yearly minimum distributions from traditional IRA accounts
are required. Roth IRA accounts are not subject to the required minimum distribution rules.
IRA custodians are required to identify on Form 5498 if a taxpayer is required to take a
minimum distribution for the next year, but the amount ofthe distribution is not reported.
Individual RetirementArrangements (IRAs) (Publication 590) contains life expectancy tables to
assist taxpayers in calculating their minimum required distributions for the year. Any portion of
the required minimum distribution not taken by a taxpayer by the end ofthe year may be subject
to a 50 percent excise tax which is reported on line 60 of the individual income tax return."
Taxpayers are required to report taxable traditional IRA distributions on line 15 of their
individual income tax return. The taxpayer's copies ofForms 5498 and I099-R are not required
to be attached to the tax return unless Federal income tax is withheld and reported on I099-R.
Custodians are given two alternatives for reporting to the taxpayer that a minimum distribution is
required. They can compute the amount ofthe required minimum distribution and provide this
amount to the taxpayer, or they can inform the taxpayer that a minimum distribution is required
and offer to compute the amount at the taxpayer's request. However, the custodian does not
report this amount to the IRS.
While our analysis is based on a limited sample of cases, it shows that the IRS does not ensure
that taxpayers and custodians are complying with the required minimum distribution rules.
When the IRS issued the fmal regulations forrequired minimum distributions in 2002, it
expressed concerns about the overall level of compliance in this area. The IRS indicated that it
intended to monitor the effect ofthe reporting requirements for minimum distributions on
compliance to determine whether it would be appropriate to modify the process in the future."
We did not fmd any evidence of IRS monitoring during our review. In addition, there are no
reporting requirements for required minimum distributions with respect to beneficiaries. As a
greater percentage of taxpayers reach the age when they are required to start receiving
distributions from their IRAs, the potential for compliance problems becomes even larger. In
2005, traditional IRA assets totaled an estimated $3.26 trillion. Noncompliant taxpayers not
taking required minimum distributions could result in billions of dollars in uncollected taxes.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 3: Consider using the indicator shown on Form 5498, Box 11, to identify
taxpayers who are subject to required minimum distributions. This data could be compiled into a



20 Insome instances, taxpayers may be able to waive the penalty due to reasonable cause.

21 Notice2002-27, Reporting Required Minimum Distributions From lRAs, I.R.B. 2002-18 (May 6,2002);

T.D. 8987 and REG-1 08697-02 in I.R.B. 2002-19 (May 13, 2002).
                                                                                                  Page 12
                                                      Page 21




                                             -
                    Individual Retirement Account Contributions and Distributions
                      Are Not Adequately Monitored to Ensure Tax Compliance



file when received and later compared against the returns processed during the subsequent filing
season" to determine whether taxpayers reported their required minimum distribution.
           Management's Response: The IRS agreed with this recommendation and has
           already begun corrective action. Specifically, the IRS has requested that Box I I data
           from Form 5498 be included in the study mentioned in their response to
           Recommendations I and 2. The results of the study will dictate what actions, if any, the
           IRS will take related to Box I I Form 5498 data.
Recommendation 4: Consider requiring custodians to report estimated required minimum
distribution amounts on Form 5498 in the blank box to the left ofBox 10. This data could then
be combined with the indicator from Box I I and used as part ofthe AlJR program to prioritize
noncompliant taxpayers who fail to report their required minimum distributions.
           Management's Response: The IRS agreed with this recommendation and has
           already begun corrective action. Specifically, the IRS will include this information
           request in the design of the data collection instrument for the National Research Program
           study ofTY 2007 individual returns.




22 The   period from January through mid-April when most individual income tax returns are filed.




                                                                                                    Page 13
                                                   Page 22




                                           -
                 Individual Retirement Account Contributions and Distributions
                   Are Not Adequately Monitored to Ensure Tax Compliance



                                                                                                Appendix I


          Detailed           Objective~ Scope~                     and Methodology

Initially, we planned to examine several tax issues affecting older taxpayers, but due to resource
constraints, we revised our overall objective to determine whether the Wage and Investment
Division is adequately planning for and addressing tax issues related to IRAs. The audit focused
on the following issues for traditional or Roth IRAs: contributions in excess ofthe maximum
allowable limit of $4,500 for TY 2005; errors reported on IRA Contribution Information
(Form 5498); and required minimum distributions from traditional IRAs. To accomplish our
objective, we:
I.	      Identified the number oftaxpayers with IRA contributions in excess ofthe $4,500
         maximum limit for TY 2005 and estimated the total excess contributions for the
         taxpayers.
         A.	 Obtained computer extracts from the Information Returns Master File' of traditional
             and Roth IRA. contributions reported by custodians on Form 5498 for TY 2005. Our
             extract criterion for traditional IRA. data was all Forms 5498 with an amount in Box 1
             (traditional IRA contribution) and "IRA" checked in Box 7. Our extract criterion for
             Roth IRA data was all Forms 5498 with an amount in Box 10 (Roth IRA
             contribution) and "Roth IRA" checked in Box 7. The Treasury Inspector General for
             Tax Administration Office ofInformation Technology staff provided the computer
             extracts.
         B.	 Evaluated the reliability of computer-processed data in both extracts and ensured that
             the records were accurate by selecting several records and researching them on the
             Integrated Data Retrieval System. 2
         C.	 Analyzed the data to identify taxpayers with IRA contributions exceeding the $4,500
             maximum limit for TY 2005.
        D.	 Estimated the sum ofthe excess IRA contributions for the taxpayers identified in
            Step C. above and calculated the 6 percent excise tax on the combined excess
            contributions.
II.     . Identified the number ofTY 2005 Forms 5498 with apparent incorrect IRA contributions.


1 The Information Returns Master File contains tax information reported from third parties for the current and

~rior5 tax years.

- The IRS computer system capable ofretrieving or updating stored information, which works in conjunction with a

taxpayer's account records.



                                            -                                                           Page 14
                                             Page 23




                                     -
               Individual Retirement Account Contributions and Distributions
                 Are Not Adequately Monitored to Ensure Tax Compliance



        A.	 Analyzed the computer data extracts from Step LA. to identify IRA contributions of
            $900,000 or more.
        B.	 Analyzed the computer data extracts from Step LA. to identify IRA contributions
            between $10,000 and $899,999.
III.	   Identified taxpayers who were required to take a minimum distribution for TY 2005 but
        did not take a distribution during 2005.
        A.	 Obtained a computer extract from the Information Returns Master File of TY 2004
            Forms 5498 with a check in Box 11, which indicated that the taxpayer was required to
            take a minimum distribution for TY 2005. We obtained a computer extract from the
            Information Returns Master File of TY 2005 Distributions From Pensions, Annuities,
            Retirement or Profit-Sharing Plans, IRAs, Insurance Contracts, etc. (Form 1099-R)
            with an amount in Box 1 (gross distribution) and distribution codes 4 (death) or
            7 (normal distribution) in Box 7 (distribution codes), and an "X" in the
            IRAISEP/SHvfPLE box next to Box 7.
        B.	 Evaluated the reliability of computer-processed data in both extracts and ensured that
            the records were accurate by selecting several records and researching them on the
            Integrated Data Retrieval System
        C.	 Compared the taxpayers in the first extract (TY 2004 Forms 5498) to the taxpayers in
            the second extract (TY 2005 Forms 1099-R). \Ve identified 471,383 taxpayers who
            were required to take minimum distributions in 2005 but did not have a
            2005 Form 1099-R indicating a distribution was taken.
        D. Reviewed a judgmental sample of3 0 ofthe 471,383 taxpayer accounts to determine
           why they did not take a minimum distribution in TY 2005. A judgmental sample of
           30 taxpayer accounts was considered sufficient to demonstrate the potential effect of
           inadequate controls over required minimum distributions.




                                                                                           Page 15
                                         Page 24




              Individual Retirement Account Contributions and Distributions

                Are Not Adequately Monitored to Ensure Tax Compliance




                                                                           Appendix II


                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)

Scott A. Macfarlane, Director

Gary L. Young, Audit Manager

Sharon A. Buford, Lead Auditor

John L. Hawkins, Senior Auditor

Elizabeth A. Miller, Senior Auditor

Tina M. Parmer, Senior Auditor

Lawrence N. White, Senior Auditor

Bonnie G. Shanks, Auditor

Judith P. Harrald, Information Technology Specialist





                                                                                   Page 16
                                         Page 25




                                  -
              Individual Retirement Account Contributions and Distributions
                Are Not Adequately Monitored to Ensure Tax Compliance



                                                                           Appendix III


                         Report Distribution List

Commissioner C
Office of the Commissioner - Attn: Acting Chief of Staff C
Deputy Corrnnissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:\V
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Account Services, Wage and Investment Division SE:\V:CAS
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Reporting Compliance, Wage and Investment Division SE:\V:CP:RC
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Performance Improvement, Wage and Investment Division SE:\V:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CLLA
Director, Office ofProgram Evaluation and Risk Analysis RAS:O
Office ofIntemal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:\V:S




                                                                                 Page 17
                                                     Page 26




                  Individual Retirement Account Contributions and Distributions

                    Are Not Adequately Monitored to Ensure Tax Compliance




                                                                                                Appendix IV


                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into om
Semiannual Report to Congress.

Tvpe and Value of Outcome Measure:
•	   Increased Revenue - Potential; $33,042,860 in excise taxes over 5 years due to
     51,109 taxpayers not reporting more than $110,142,873 of excess contributions to IRAs
     (see page 7).

Methodology Used to Measure the Reported Benefit:
We performed computer analyses on more than 13.7 million IRA Contribution Information
(Form 5498) showing IRA contributions in TY 2005 and identified 107,129 taxpayer accounts
that appeared to have exceeded the $4,500 maximum allowable IRA. contribution limit for TY
2005 and did not report excise taxes on these excess contributions.' In an effort to validate om
analysis of actual instances of excess contributions, we eliminated as obvious errors all Forms
5498 that showed an IRA contribution greater than the maximum allowable of $4,500. 2 Our
results effective ly reduced the 107,129 taxpayer accounts that we had initially identified
to 51,109. 3
These 51,109 taxpayers had total contributions in 2005 of $340,133,373. Because these
taxpayers should have only been allowed one $4,500 contribution totaling $229,990,500, we
identified
$110,142,873 in excess contributions" above the allowable $4,500 limit for each of these
taxpayers. The total unreported 6 percent excise taxes on the $110,142,873 would be $6,608,572
in TY 2005.




1 To avoid erroneously identifying taxpayers 50 years and older as having exceeded their IRA contribution limit, 'we

used the maximum allowable amount of $4.500 fur TY 2005.

2 We considered these contributions as obvious errors, given that financial custodians would be aware ofthe

contribution limitations and amounts reported more than $4,500 would in all probability be errors,

3 \Ve also eliminated 6,644 taxpayer accounts where it appeared that no excess contributions were made.

4 Contributions greater than the $4,500 maximum allowable contribution limit for TY 2005 are defined as "excess"

IRA contributions.

                                                                                                           Page 18
                                            Page 27




               Individual Retirement Account Contributions and Distributions

                 Are Not Adequately Monitored to Ensure Tax Compliance




We believe that these taxpayers could continue to make the same excess contributions in
subsequent years and estimated that over 5 years the amount of tentative excise taxes that would
not be collected would be approximately $33,042,860.

Tvpe and Value of Outcome Measure:
•	 Increased Revenue - Potential; $19,054,013 in tax over 5 years on an estimated cumulative
   amount of$127,026,756 in unreported interest on excess contributions to IRAs (see page 7).

Methodology Used to Measure the Reported Benefit:
In addition to the $6,608,572 loss in excise taxes for TY 2005, there is a potential future
compound interest effect from the $110,142,873 as it relates to revenue loss from unreported
interest over the next 5 years. Our calculations were made using future value annuities formulas.
\Ve calculated the compounded unreported interest on the excess contributions of $110,142,873
identified for TY 2005 using an interest rate of 7 percent. We identified an estimated cumulative
amount of $127,026,756 in unreported interest ifthe excess contributions were made repeatedly
each year for the next 5 years We used the assumption that if the taxpayer made an unallowable
contribution in TY 2005, this unallowable contribution would be recurring in future years.
In addition, we applied a 15 percent tax rate and determined that $19,054,013 in potential tax
could be unreported over the next 5 years on the $127,026,756.

Tvpe and Value of Outcome Measure:
•	 Increased Revenue - Potential; $94,426 in excise taxes for required minimum distributions
   that were not taken by 5 taxpayers from their IRAs (see page 11).

Methodologv Used to Measure the Reported Benefit:
\Ve performed an analysis oftaxpayers who were required to take minimum distributions in
TY 2005 and identified 471,383 taxpayers who were required to take minimum distributions, but
no distributions were reported. \Ve reviewed a judgmental sample ono taxpayer accounts and
determined that 5 taxpayers (17 percent) did not take any or an oftheir 2005 required minimum
distributions. We determined that $188,852 (72 percent) ofthe $261,447 total estimated required
minimum distributions for the 5 taxpayers was not taken. The 50 percent excise tax that was not
reported on this income totaled $94,426.




                                                                                          Page 19
                                                                                                                                   Page 28




                                           Individual Retirement Account Contributions and Distributions
                                             Are Not Adequately Monitored to Ensure Tax Compliance
                                                                                                              -
                                                                                                                                                                                                                                                Appendix V

                               IRA Contribution Information (Form 5498)

Figure 1 shows Copy A of a blank Form 5498 for TY 2005. Copy A is filed with the IRS. Not
shown are Copy B, which is provided to the IRA owner, and Copy C, which is kept by the IRA
custodian who prepared the Form 5498.
                                                                                                             Figure 1: Form 5498

                                      C1B28                                 o \/nID o CORRECHIJ
      TRI.I-:=-TEE':S ':I'If>'SI.'ER'S            n~ll'ie.   e1J'..;..;..t j"l·:ldl'-::'S.': it). tittlH-.   ~"iIl.j   21P ':.:ld-:­       1      IRA ·:·~ntlil:{/'1hn. i·:·'111'"          ':'M£', n:·. 1;4.5-Dl4'
                                                                                                                                                  U~~"in ....~..·:ol.mtl i[~ b;:"I'l••
                                                                                                                                                  2-=1. r..... J '?-1 1: ':'                                                                                               IRA
                                                                                                                                           $
                                                                                                                                           z Fl-:.IIt;-·..el .;':lll:rihl'd-;'nt:                             05                                   Contribution
                                                                                                                                                                                                                                                       Inforrnafion

                                                                                                                                           1;                                                       .fJ:ml   S498
      IW;lEFt ,., 15<'1JIf:; f.>1llI~ ~"UI:II~n n•. , P'FTI'~IPHn'S .:.,.,1 "'''"il r "Imlbill                                             :.;; Rot .... IFv-. Oljlh-8"~'" lil'tl':iJI11      4     R6~1'ilI"'O'IfJlju.j   -)-:Illlil'ilniont
                                                                                                                                                                                                                                                                   Copy A
                                                                                                                                           :j;                                                $                                                                       FM
      P.ARfI·:·IPAHT~ I~~"inl~                                                                                                             .;;.   F~" h'afll~:';' ,..,Mu;.:.(~~:,lH'          6     Ur.;./n6tll;'lI'iC=8   ·:·:dlt               Im~nkll R~.w.ml'!!
                                                                                                                                                                                                    ilclud"",,:1 in b-:Ia I
                                                                                                                                                                                                                                                   &lrvi';I:! Cl'llltM
                                                                                                                                                                                                                                                Fil~   ....·ith Forn1WJ{..
  I                                                                                                                                        $                                                  '1;
                                                                                                                                                                                                                                                            1'"·:iPIi·,()o:;yt.m
  I !;~ .....t .'·:Idr.... ~rt; lIdi",. <If;·t n-:'.)                                                                                      i                  IRA              i;EP        i;1I·tf'lE          ~All~
                                                                                                                                                                                                                                                            :\IlCIP.:II:",wl:-rk
                                                                                                                                                              0                0             0                     0                                          Rlli<tLILtio: on ~.et
                                                                                                                                                                                                                                                          Notic.a;..    S,"l!otll~
      l:'i~. e('3tG. -ill1d ZIP ood..;                                                                                                     ~ ~EP Ot;f'll:ril:-\rTj·;~~                        o ;;IMPLE·;·;m·D:"d·:·,,.                                     2-:1(·(;   Gf'n~r<il
                                                                                                                                           $                                                 $                                                          In~trw;til:llls      for
      .t..;';I;.. lItt ......lIr.:.1 ~elliil' in$l;IUCli.;r'1ai1                                                                       19 fl.;,tll IR'" ·;·:lltlit'l\i:".                   11 (·h...;h HF1tAL'                                   Forms 1\199. 1(19-01•
                                                                                      I                                                    $
                                                                                                                                                                                                    '.;f' ~o.:t3
                                                                                                                                                                                                                                       0           6498& and ·.1J-.i::..1;~

  F:l1ll      549l;l;                                                                                                              .~~t.    N·;·. ;';'010(

  Do No1 Cu1 or separate ForolS 011 This PagG                                                                                                                   Do Not Cut or SGpal,ltEi FlJlms 011 This                                                                Pag~


Source: TY 2005 Form 5498.

Traditional IRA - Custodians must report the amount of contributions to a traditional IRA in
Box I and may check "IRA" in Box 7.
Roth IRA - Custodians must report the amount of contributions to a Roth IRA in Box 10 and
may check "Roth IRA" in Box 7.
Required lvIinimum Distributions - Custodians must check Box 11 if the IRA owner is required
to take a minimum distribution for the new tax year. The custodian is not required to report the
amount to the IRS.




                                                                                                                 -                                                                                                                                               Page 20
                                                                                                           Page 29




                                                                                             -
                                      Individual Retirement Account Contributions and Distributions
                                        Are Not Adequately Monitored to Ensure Tax Compliance



                                                                                                                                                                                                                                    Appendix VI


        Distributions From Pensions, Annuities,

  Retirement or Profit-Sharing Plans, lRAs, Insurance

             Contracts, etc. (Form 1099-R)


Figure 1 shows Copy A of a blank Form 1099-R for TY 2005. Copy A is filed with the IRS.
Not shown are Copies 1 and 2, which are provided to be filed with a State, city, or local income
tax return; Copies B and C, which are provided to the IRA owner; and Copy D, which is kept by
the IRA custodian who prepared the Form 1099-R.
                                                                                         FIgure 1: Form 1099-R
                           9898                              D'I("ID
    Pft.';'ER't::.
                                                                           .'                 ."~.

                     nam.... :Jtl-......rt :t-:klr...w. ·;itJ. st:;1l:0i=0. (11'.. :1ZIP cod...
                                                                                                     .»
                                                                                                          ,         co-eo ciOlril)uti(ln                      {:M9 t-lo. 1':"';·('1 N                     Distril)utlons FrOl1i
                                                                                                                                                                                                        P.;tIlSio-ns-, Ann'Ii1~s~
                                                                                                                                                                                                                 R...tw~lnerll                     or
                                                                                                          :I;
                                                                                                          2.:a To"c,,"bI.;,. C'IIn:,ll'                                       05                                         Profit-SI1"""rillg
                                                                                                                                                                                                                             PlallS, IRAs.
                                                                                                                                                                                                                                    Instlr~nc.f'!!
                                                                                                          ,.,                                                      FOlm    1099-R                                       Contra.:::ts, +:I't4::..
                                                                                                                                                                                                                                C<>pyA
                                                                                                          2b        ~~~~t:l~~~'~~~ 0                                          T"'01
                                                                                                                                                                              cOotlil)ull·:,n       0                                  For
    PA.,'(ER'f) r::.;..d~~1 iclwnti1ic::'ltbll             RE·:IPIE:t-IT'S iclli4ltifi·:::rti,:~'"        s         C~"lj:b' ~_i           (illcludli!-c1      4	    F'i<liol~1 "1-:-:111"1'0 trlJ(,              In1f?!rn.a1 Re v .;:l'lU~
    IlUlU.:......                                          J"ll.nt·..·..                                            Ira !»JlI. ;J::l)                                WJthh,;,lo:l                                       $f?!l'\(kB C~nl~r


                                                                                                          <l;                                                  .$                                                 File:. ""'itll Fonn 1-:190..
    F:E':;IPfE NT'f:'~     Il~"'rn.                                                                       5	        Ell~~·tIJ* ':('ITtrll:·u(I,:.~             6	 H ...t    Lllr~IL!:,;,d

                                                                                                                    I;·rl~lf::ln(~ I)f"........ tua                  ~\r'I)f ...::i.). U.:~) II)
                        For PrivdC;..·· Act
                                                                                                                                                                     wmp":I)'w"        ~ ~1Ii1J...s                      an-j Pa/JElN,,',>r1c
                                                                                                                                                                                                                          AoErI1h:tk·n A.;t
                                                                                                          $                                                    .$                                                        N·)til~~. S~ ll1E'=

    ~~1r...
         •••.t odcJr,;,.o~ ~iJ').;lt.dn·J ~pr.      no.!                                                  ..        Dj~rH:'lltkrn
                                                                                                                    1,):-:1.;(0:1              [ ~EP'
                                                                                                                                                 IRA
                                                                                                                                                               S Oth ....                                                   200!> c..'",ral
                                                                                                                                                                                                                        .l>tn~;:tio:~)S           rer
                                                                                                                                                  '''(jlE      •,>                                        C)!',
                                                                                                                                                                                                                               FOnH$ 1099•
                                                                                                                                                                                                                                  1093. 5490a..
    C~y, ~(l1".        ::'lnd ZIP ->: ..:1.,.                                                                       '('lUI' p·i4'~.;.,nt:'l·,1>i IIf   tl:d   9b T.)l.,I..;..n•• »)'~ ·;(.nttibuti(tl'G                           a.ldW·,2G..
                                                                                                      9"
                                                                                                                    di:r..ttil:uu"11                    ...    $
    A.:c(>{nt nUlnl)€of' ':::Hoi in :;t'\I·:1i('l1~i                                                  ,0 ::'allOotu.c",,,ithll"'ld                            11     ~,t,:,t.;,./P~)'·,;,·r·~ ~~.;,.    l"ll:'.    12     ~-.t:'ll';'   ciztril:'lltilm
                                                                                                     . ~ ... -... - .. -...
                                                                                                      1~
                                                                                                                                          -_._ ... -.. - ....
                                                                                                                    L';I,:31 tee- ...1tllhi-I-j
                                                                                                     . ~._-- ..._.................
 ... ... ... -.
                                                                                                                                                              ,.     '-.'.~-".~        .-..
                                                                                                                                                                     H,:)I1l';' IA i1:lCality
                                                                                                                                                                                 '-'
                                                                                                                                                                                              _-~-----_.




                                                                                                                                                                                       ........ _.. -._-
                                                                                                                                                                                                                  I~~··""·'·'···· ......
                                                                                                                                                                                                                   15     u;"~(lI·jistribLlti':·11

                                                                                                                                                                                                                  rt··--·--_·...........
   F·:ml   1099-R
  Do Not Cut or                        Sellill•."te Forms on This P•."ge                                        -         0-0 Not cut                         01 &e11.lr•."le FOlms on                                         This          P.lg~


Source: TY 2005 Form 1099-R,

Required Minimum Distributions from Traditional lRAs - Custodians must report a traditional
IRA distribution in Boxes 1 and 2a, regardless of the amount. Generally, they are not required to
compute the taxable amount of the distribution. However, they must still report the total
distribution amount in Box 2a and check Box 2b, even though the taxable amount was not
determined.



                                                                                                  -                                                                                                                                                       Page 21
                                           Page 30




              Individual Retirement Account Contributions and Distributions

                Are Not Adequately Monitored to Ensure Tax Compliance




Custodians should check the "IRNSEP/SIMPLE" checkbox and enter the appropriate
distribution code in Box 7. A Guide to Distribution Codes is included in the IRS' TY 2005
Instructions for Forms I099-R and 5498.




                                                                                       Page 22
                                                                Page 31




                                       -
   Individual Retirement Account Contributions and Distributions
     Are Not Adequately Monitored to Ensure Tax Compliance



                                                                                                                          Appendix VII


Management's Response to the Draft Report



                               Gfr:.~ .,~.!:.';''''!;:''~''''~~"'':'     ·':.. t:   ~"~.~r:. Tnt~'/>":':;UH'f
                                          ·lhF,I~,'-;;·i"'· .. ri~'.:"':'':<-I\i.':.           !""'.:i,,',i   ·:.~C.
                                                                     s, ~: ..
                                                     ~I.Y:' ••'L;·..··          ,;.~:.. :.t:O::~'.-:: I:';




                                                           IIA.R                    ., 20tl8




   MEMORANDUM FOR MICHAEL R. PHILLIPS

              .  . DEPU1Y lNSPE(,:r ?ENE,~!~:OR/":UDIT

   FROM:                     Richard Byrd, Jr . •                        ,,......-f..-J                        -,;;,.~~
                          .. Commissioner, Wage and Ilwest/Tlent Division

   SUBJECT:	                 Draft Audit Report - 11'IdiVldllal Retirement Account Contributions
                             and Distributions Are Not Adequately Monilonod To Ensure 'Tax
                             Comp~ant:e (Audit ## 200740010)



     , reviewed the subject draft report and belie..... it accurately identifies the d,fflcultv the
   ·IRS [""as 'n addressing Individual Retirement Accounts (IRA! compliance. 1 appreciate
   ·your recommendattons to st"er'g1hen our position regarding t8~payen; who are
     ""ncompliant wtth the IRA rules. The recent Government Accountability Office (GAO)
   · audit report ent.itled, Individual R8lirem(mt Accounts: IRS Entorco« Soma bllr Not All
   .,'<ey Roles, and Opp",rullilies Exist /0 Strengthen Taxpayer Compliance. [GAO-07­
   .1059SU). dated September 2007, addreSSed many of the same IRA Issues identified In
   · your report. In response to that report. we agreed to conduct a study to determine
     volume and trends related to noncompliant laxpaieTs making Roth IRA contnbuuons.
   · Once the re.search data becomes availableru)(w)(,@ikei'd the IRS Will coocuct-an
   · analysis to determine lhe best approach to improve taxpayer compliance.

     You, report also addresses the various custodian errors on me Form 5498, Ir~A
   · ConWbutlon Information. We agree with your concern and have requested our Wage
     and Investment Research and Analysis office analyze Forms 5496 to identify the
     cauaea of errore "od look for possible cerrectjve aCliot'ls_ Combined, these two stlldi",s
   · will provrde much needed addilional research and assist in developing thB framework
     for future compliance initiatives in this area.    .

   Atlached are our specific comments to your recommendations. We do not agree with
   the proposed outcome measures because we can not substantiate the doHar amounts
   based on the assumption tnat taxpayers wUl continue the same behavior over time. We
   don't beli""" thaI the outcome meal>lJres will be- realized if the IRS chooses to take 8.
   different route based on tn", resutts Of lhe study. We will rely on the results of our




                                                                                                                                Page 23
                                                         Page 32



t   iW

                                               -
       "" ", ; Individual Retirement Account Contributions and Distributions

~~~f!,m~ ~~)f!f        Are Not Adequately Monitored to Ensure Tax Compliance




                                                              :2

                  . planned research to determine both the appropriate options to address compliance and
                  ·.corresponding measures to gauge our success. If you have any questions, please
                    contact me at (404) 338-7060, or members of your staff may coni.act Peter J. Stipe\<;,
                  . Director, Customer Account Services, at (404) 338-8910...       .',              ,

                  .Attacnmsnt '




                                                 -
                                                          Page 24
                                         Page 33




                               -
 Individual Retirement Account Contributions and Distributions

   Are Not Adequately Monitored to Ensure Tax Compliance





                                                                                Attachment

 RECOMMENDATION 1
 The Commissioner. Wage and Investment Division,. should have the Wage ano
 Investment Resean:;h and Analysis office analyze Forms 5498 to identify th.e causes of
 tne errors and possible corrective actions. The possible corrective actions could
 include:
 •	 Notifying the custodians of errors identified and requesting corrected Forms 5498.
 •	 Estabushinp validity checks to reject. or redirect for further analysis. Forms 5498 that
    are submittec with more than lhe maximum allowabie contribution for that tax veer:
 •	 Assessing appropriate penalties agllinsl' custodians who repeatedly submit

    erroneous Forms 5498.


 CORRECTIVE ACTION
 We agree with your recommendation and have already begun our correciive action in
 response to similar recommendations (Recommendations 3 and 4 In Ihe recent
 Government Accountability. Office audit report entitled, Individual Retirement Accounts:
 IRS Enforces Some but Not All Key Rules, and Opportunities Exist to Strengthen
 Taxpayer Compliance, (GAO.Qr GAO 1059SU»). In thai response. we outlined our
 plans to gather data through our National Research Program stUdy of Tax Year 2007
 individuai returns. This data will focus on non-compliance witl1 traditional and Roth tRA
 contributions rules, .and identify polential penally amounts for k.ey IRA rules, as wef: as
 for taxpayers Over ages 70Y> who do not take required minimum distributions for
 traditional fRAs. We will also analyze Forms 5498 in an effort fo Identify erroneous
 tll1l1gS and develop outreach opportunities designed to                er reporting
 accuracy. Once the research data becomes available                      the IRS will
 determine tho best approach to improving payer reporting behavior.                  .

 iMPL.EMENtATION DATES

 December 15, 2011


 RESPONSIBLE OFFICIAL

 Oirector, Research and Analy~;is. Wage and Investment Division


. CORRECTIVE ACTION MONITORING PLAN
. Wet will monitor this corrective action as part of our internal management confrot
  .systern .

. RECOMMENDATION 2
  The Commissioner, Wage and Investment Division, should develop and implement
 .strateqles to bring noncompliant taxpayers back. into compliance. These strategies
  coUld include: . . '               ....          ... ..............      .





                                -
                                                             Page 25
                                       Page 34




                              -
Individual Retirement Account Contributions and Distributions
  Are Not Adequately Monitored to Ensure Tax Compliance




                                            2




                                                               e 6 percent excise tax on


                                              create special extracts of Form 5498 data
                                               and send notices to taxpayers appearing.
     to have made excess contributions to their IRAs, explaining that the taxpayers need
     to withdraw any excess contributions or pay the required excise tS)(6S.

".

CORRECTIVE ACTION
We agree with your recommendation and have already begun our corrective action in
response to a similar recommendation (Recommendation 1 in the previously referenced
GAO report). In Ihat response, we outlined our plans to conduct a study to determine
volume of excess contributions and identify trends related to noncompliant Roth IRA
contributions. We will expand the analysis to include traditional IRA contributions
information. Once the study IS completed and excess contribution amounts are
stratified. we will identify cost-effective methods to address taxpayer accounts that are
not compliant with Rolh IRA contribution rules. One possible outcome may be a soft
notice initiative. where every taxpayer meeting certain criteria is sent a notice. These
actions should also satisly the intent and purpose of Your recommendation.

IMPLEMENTATION DATE
January 15.2010

RESPONSIBLE OFFICIAL
Director. Compliance, Wage and Investment Division

CORRECTIVE ACTION MONITORING PLAN
We will monitor this corrective action as part of OUT inlernal management control
system.


RECOMMENDATION 3
The Commissioner, Wage and Investment Division. should consider using the indicator
shown on Form 5498, Box 11, to identify taxpayers who are subject to required
minimum distributions. This data could be compiled into a f~e when received and later ..
compared against the returns processed during the subsequent filing season to
delermine whether taxpayers reported their required minimum distribution.




                               -
                                                           Page 26
                                           Page 35




                                -
  Individual Retirement Account Contributions and Distributions
    Are Not Adequately Monitored to Ensure Tax Compliance




                                                 3


  CORRECTIVE ACTION
  .As dIed above, we previously responded lCJ GAO regaro'ing the same subject. We
  have spec..ifically requested Box 11 data from Form 5498 be included in the study
  mentioned above. The results of the study will diclal.e.. what actions, if any, we will tak.~
  related to Box 11 Form 5498 data.          ......                               ..        .

  IMPLEMENTATION DATE

  J,mlJary 15, 2010


  RESPONSIBLE OFFICiAl

  Dlrector.iCornphance, Wage and Investment DivisIon


  CORRECTIVE ACTION MONITORING PLAN
 .We will monitor. this corrective action as part of OOf inte.mal management control
  system.

  RECOMMENDATION 4
  'Tho Commissioner. Wage and Investment Division, should consider reqUiring
  custodians to report estimated required minimum distribution amounts on Form 54gB in
  the blank box to the left of 80x 10. This data could then be combined with the indicator
  from Box 11 and used as part of the AUR program to prioritize noncompliant taxpayers
  who f:)11 10 report their required minimum dlslributions.

  CORRECTIVE ACTION
  We previously responded to GAO regarding the same subject. The IRS wi" include this
  information request in the design of the data collection instru
  Research Pro rarn stud of Tax Year 2007 indiv'


  IMPLEMENTATION DATE.
  March 15, 2011

   RESPONSIBLE OFFICIAL
". Dlrectcr, Research. Analysis & Statistics

 · CORRECTIVE ACTION MONITORING PLAN
 · We will monitor this corrective action as part ot our internal management control
 · syslem.·                                                                   ..




                                                                                                  Page 27
